            Office Of Inspector General




September 29, 2006

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

RONALD E. HENDERSON
MANAGER, HEALTH AND RESOURCE MANAGEMENT

SUBJECT: Audit Report – Postal Service’s Schedule Awards Program in the
         New York Metro Area – Report I (Report Number HM-AR-06-007)

This report presents the results of our self-initiated review of the Department of Labor’s
(DOL) Office of Workers’ Compensation Programs (OWCP) Schedule Awards (Project
Number 06YG019HM000) in the U.S. Postal Service’s New York Metro Area. Our
objectives were to determine whether the U.S. Postal Service’s New York Metro Area
was over- or undercharged for schedule award payments and received credits due from
the DOL OWCP for chargeback years1 (CBYs) 2004 and 2005.

We concluded the Postal Service may have been overcharged $10,750 and
undercharged $15,060 for schedule awards in the New York Metro Area. The potential
over- and undercharges are less than 1 percent of the $6.7 million in schedule awards
paid to employees in the area in CBYs 2004 and 2005. Although the amounts are not
significant when compared to the total schedule award payments, they highlight the fact
that some employees may not have received benefits they were entitled to while others
may have received more. Of the 35 potential incorrect charges we identified, the
OWCP has issued a reimbursement check to one employee and the Triboro District
requested the OWCP reimburse another. The Postal Service is in the process of
requesting that the OWCP verify the validity of the remaining 33 potential incorrect
charges.

The Postal Service has taken corrective actions, and the U.S. Postal Service Office of
Inspector General (OIG) made eight recommendations to help the Postal Service
improve its management of schedule awards. Of the eight recommendations, five are
addressed to the Vice President, New York Metro Area Operations; and three are
addressed to the Vice President, Employee Resource Management. The Vice
President, New York Metro Area Operations, agreed with the findings and
recommendations.
1
  The OWCP’s Chargeback System is the mechanism by which the costs of compensation for work-related injuries
and death are billed annually to employing agencies. The chargeback billing period is from July 1 of one year to
June 30 the following year.
Postal Service’s Schedule Awards Program                                                             HM-AR-06-007
 in the New York Metro Area – Report I



The Manager, Health and Resource Management, responded for the Vice President,
Employee Resource Management, stating their agreement with the findings and
recommendations. Management’s comments in their entirety are in Appendix D.

                                                 Background
OWCP

The Federal Employees’ Compensation Act (FECA) pays workers' compensation
benefits to civilian employees, including Postal Service employees, who are injured on
the job. The OWCP adjudicates claims and pays compensation, medical, and death
benefits for these injured federal workers. The OWCP pays compensation and benefits
from its Employees’ Compensation Fund, which federal agencies later reimburse
through the chargeback billing process. A schedule award is a form of compensation
paid for specified periods of time for the permanent loss, or loss of use, of certain
members, organs, and functions of the body. Payment is for a specified number of days
or weeks, depending on the severity of the impairment.

Schedule Award

The schedule award compensation for proportionate periods of time is payable
beginning on the date of maximum medical improvement.2 In addition, a schedule
award can be paid if the employee returns to work. However, employees may not
receive wage-loss compensation and schedule award payments concurrently for the
same injury.

The OWCP’s district medical advisors determine the percentage of permanent
impairment according to the American Medical Association’s Guide to the Evaluation of
Permanent Impairment. Title 5 of the U.S.C.3 defines the number of weeks allotted for
payment by body part or organ. The OWCP schedule award compensation is
computed by multiplying:
           •   The weekly base pay
           •   × 66 ⅔ percent (for employees without dependents) or 75 percent (for
               employees with dependents) of the employee’s weekly base pay
           •   × the number of weeks allowed for the impairment
           •   × the percentage of permanent impairment
For example, a schedule award payment for a married employee who earns a weekly
base pay of $961.54 and loses an arm or the use of an arm (100 percent permanent
impairment) is computed as follows:



2
    Maximum medical improvement is defined as “a medical judgment that the condition has permanently stabilized.”
3
    Part III, Subpart G, Chapter 81, Subchapter I, Section 8107, Compensation Schedule.

                                                          2
Postal Service’s Schedule Awards Program                                                           HM-AR-06-007
 in the New York Metro Area – Report I



        •    $961.54 per week × 75 percent = $721.16 per week
        •    $721.16 per week × 312 weeks4 × 100 percent = $225,000
        •    $225,000 is the amount of the employee’s schedule award

DOL policy states an employee can receive a schedule award in a lump-sum payment5
or periodic payments spread out over time. Periodic payments occur every 28 calendar
days (4 weeks) and in the example just given would equal $2,884.64 per month
($721.16 per week x 4 weeks).

If an employee sustains a period of total disability during the award period, the
payments may be interrupted while the employee is on total disability and resume after
the employee is no longer on total disability. If an employee dies while receiving a
schedule award from causes unrelated to the injury, his or her dependents are entitled
to the balance of the award at the rate of 66 ⅔ percent.

Cost-of-Living Adjustment (COLA)6 Applied to Schedule Award Monthly Payments

When an employee receives schedule award compensation for longer than 1 year, the
employee is entitled to a COLA that annually takes effect on March 1. However, if an
employee received compensation related to the injury, including Continuation of Pay
(COP),7 the 1-year entitlement period starts the date that compensation (not just
schedule award compensation) was first paid.

The OWCP increases schedule award monthly payments by multiplying the COLA
percentage by the authorized monthly payment in effect at the time of the COLA.
Table 1 illustrates how the COLA increase would impact an employee’s monthly
schedule award payment in calendar years (CYs) 2003, 2004, and 2005.

                    Table 1. Example of COLA Effect on Schedule Award Payments

          Initial                                   March 1
         Monthly           CY 2003                  CY 2004                 CY 2005
         Amount       COLA          New        COLA          New       COLA           New
        Approved    Percentage Payment Percentage Payment Percentage Payment
         $2,884.64          2.4 $2,953.87            1.6 $3,001.13           3.4 $3,103.17
     Source: COLA percentages provided by Deputy Director, OWCP, San Francisco District Office
     Note: Numbers are rounded.



4
  As defined by Title 5. If the employee had a 50 percent permanent impairment, the number of weeks would be 156.
5
  Federal Register, 20 Code of Federal Regulations, Part 10, Section 10.422(b), states that a lump-sum payment may
be made to an employee entitled to a schedule award under 5 U.S.C. Section 8107, when the OWCP determines the
payment is in the employee’s best interest. A lump-sum payment is generally considered in the employee’s best
interest only if the employee does not rely on compensation payments as a substitute for lost wages (that is, the
employee is working or is receiving annuity payments). An employee has no absolute right to a lump-sum payment
of benefits under 5 U.S.C. 8107.
6
  The COLA is an annual increase in benefits to cover costs associated with living expenses.
7
  COP is regular pay provided immediately to an injured employee for up to 45 calendar days with no charge to sick
or annual leave.

                                                        3
 Postal Service’s Schedule Awards Program                                                           HM-AR-06-007
  in the New York Metro Area – Report I


 Schedule Award Payments by Postal Area Offices

 Postal Service schedule award payments increased 12 percent from CBY 2002
 ($84.9 million) through CBY 2006 ($95.4 million). Table 2 illustrates the schedule award
 payments for each Postal Service area office, including the New York Metro Area
 (highlighted) and Postal Service Headquarters for CBYs 2002 to 2006.
     Table 2. Schedule Award Payments for Each Postal Service Area Office for CBYs 2002 to 2006

                                                                 CBY
     Area Office          2002               2003                2004                2005                2006
 Capital Metro            $3,253,004         $4,916,146          $5,299,602          $4,667,609         $3,814,513
 Eastern/Allegheny        11,462,059         12,406,483          13,316,209          11,736,310         12,361,815
 Great Lakes              10,357,923         10,764,025          12,426,055          11,457,866         12,351,963
 Headquarters                612,720            386,419             577,331             342,145            512,344
 Inactive Number8            373,724            411,783             363,286             128,541            359,528
 New York Metro            3,596,544          3,430,846           3,438,499           3,252,250          4,146,152
 Northeast                 3,498,465          4,042,075           4,259,813           4,490,540          5,307,221
 Pacific                  19,378,539         19,074,656          20,498,599          17,235,227         17,554,083
 Southeast                 8,488,754          8,170,322          10,551,280           8,887,489          8,795,848
 Southwest                13,437,026         16,832,483          19,027,628          16,022,203         17,498,682
 Western                  10,514,377         11,962,087          14,406,475          13,356,342         12,743,472
   Total                 $84,973,135        $92,397,325        $104,164,777         $91,576,521        $95,445,621
Source: Postal Injury Compensation System (PICS)9

 Postal Service Workers’ Compensation Costs

 The Postal Service was the largest participant in the OWCP in CBY 2006, representing
 about 49 percent of the total cases for the federal workforce. It was also the largest
 payee to the OWCP, with $863.1 million in payments for the same year. This is about
 36 percent of the $2.4 billion in total federal workers’ compensation payments. In
 addition to the $863.1 million, the Postal Service also paid $20.9 million in chargeback
 billing costs for the old Post Office Department10 and an administrative fee11 of
 $48.3 million. This brings the total CBY 2006 costs to $932.3 million, as shown in
 Table 3.




 8
   Each Postal Service office has a finance number. The Inactive Number category represents inactive finance
 numbers.
 9
   PICS is an OIG system that contains weekly medical costs and workers’ compensation data from the OWCP for
 each injured Postal Service employee.
 10
    The Post Office Department represented compensation claims incurred before the Postal Service reorganization in
 1971. Under the Postal Reorganization Act of 1971, the Postal Service remained responsible for payment of all Post
 Office Department workers' compensation claims incurred before July 1, 1971.
 11
    Administrative fees represent the amount the OWCP assesses for managing workers’ compensation claims. The
 amount paid is approximately 5 percent of the Postal Service’s medical and compensation costs. The Postal
 Service’s administrative fees increased about 6.6 percent from CBY 2002 ($45.2 million) through CBY 2006
 ($48.3 million).

                                                          4
Postal Service’s Schedule Awards Program                                        HM-AR-06-007
 in the New York Metro Area – Report I

                      Table 3. Postal Service Total Workers’ Compensation
                                and Medical Costs for CBY 2006

                                                                  CBY 2006
                                  Type of Cost                    (millions)
                     Postal Service workers’ compensation
                     and medical costs                                $863.1

                     Post Office Department workers’
                     compensation and medical costs                      20.9

                     Administrative fee                                  48.3

                       Total                                          $932.3
                    Source: DOL OWCP Chargeback Billing Summary


                        Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in detail in Appendix B.

                                   Prior Audit Coverage
The OIG has issued two reports on the OWCP’s schedule award compensation: Audit
Reports – OWCP’s Schedule Award Payments to Postal Service Employees in the
Pacific Area – Report I (Report Number HM-AR-06-001, dated January 17, 2006); and
Report II (Report Number HM-AR-05-011, dated September 29, 2005). The reports
stated the Postal Service was overcharged about $249,506 and undercharged about
$240,222 for schedule awards in the Pacific Area. The overcharge is about 1.2 percent
of the $20.6 million paid to Postal Service employees in the Pacific Area in CBY 2004.
The over- and undercharges were less than 1 percent of the amount paid to employees;
however, they indicated the OWCP over- and underpaid 4 percent of the Pacific Area
employees who received schedule award payments. Although the amounts are not
significant compared to the total schedule award payments, they highlight the fact that
some employees did not receive benefits they were entitled to while others received
more.

The reports also stated that FECA schedule award maximums were not comparable to
state schedule award maximums. Finally, the auditors could not determine the extent to
which private insurance companies’ schedule award maximums were comparable to
federal maximums because private companies compute their awards differently.




                                                 5
Postal Service’s Schedule Awards Program                                   HM-AR-06-007
 in the New York Metro Area – Report I


                                           Audit Results

Postal Service Over- and Undercharges

The Postal Service may have been overcharged $10,750 and undercharged $15,060 for
schedule awards in the New York Metro Area. The potential over- and undercharges
are less than 1 percent of the $6.7 million in schedule awards paid to employees in the
New York Metro Area in CBYs 2004 and 2005. Although the amounts are not
significant when compared to the total schedule award payments, they highlight the fact
that some employees may not have received benefits they were entitled to while others
may have received more. The Postal Service needs to ensure that it is not overcharged
for schedule awards and that employees are paid the amounts authorized by reviewing
their chargeback reports and reporting any discrepancies to the OWCP before they are
billed.

We reviewed a sample of 110 Postal Service employee workers’ compensation case
files from a universe of 243 files to determine the total amount of over- and
undercharges. Of the 110 case files reviewed, 35 employees who received schedule
award payments in the New York Metro Area in CBYs 2004 and 2005 may have been
paid more or less than the amounts authorized, as follows:

    •   Six employees may have been overpaid.
    •   Twenty-nine employees may have been underpaid.

See Appendices B and C for the methodology and statistical sampling, respectively.

Potential Overpayments Identified

Of the six employees that may have been overpaid, three payments were less than
$500 as shown in Table 4. The remaining three employees may have been overpaid
more than $1,000. Two of the potential overpayments occurred in one Postal Service
district injury compensation office in the New York Metro Area – Central New Jersey
(see the shaded row in Table 4). The largest potential overpayment occurred in the
Caribbean District.




                                                 6
      Postal Service’s Schedule Awards Program                                                            HM-AR-06-007
       in the New York Metro Area – Report I

                      Table 4: Number of Potential Overpayments, by Postal Service District
                                          Injury Compensation Office

                                           Potential Overpayments: Amounts Paid Over the
                                                         Authorized Amounts
  Injury Compensation          $5 to        $50 to        $100 to       $500 to          $1,000 to
          Office              $49.99        $99.99        $499.99       $999.99         $4,999.99                      Total
 Caribbean                      ---           ---           ---            ---               1                          1
 Central New Jersey             ---           ---            2             ---               2                          4
 Long Island                    ---           ---           ---            ---              ---                         0
 New York                       ---           ---           ---            ---              ---                         0
 Northern New Jersey            ---           ---            1             ---              ---                         1
 Triboro                        ---           ---           ---            ---              ---                         0
 Westchester                    ---           ---           ---            ---              ---                         0
         TOTAL                   0             0             3              0                3                          6
                                                                                         12
Source: Schedule Award of Compensation Letters and OWCP Agency Query System (AQS)             Case Compensation Payment
History

      As shown in Table 5, the three potential overpayments of more than $1,000 totaled
      $9,838 and represented 92 percent of the $10,750 that may have been overpaid. The
      remaining three employees may have been overpaid a total of $912.

        Table 5: Highest Three Potential Overpayments, by Employee, Compared to Total Overpayments

                                                                                    Potential
                                               Amount                               Amount            Percentage of Total
                  Employee                    Authorized      Amount Paid           Overpaid            Overpayments
     Employee A                                 $62,356           $67,332               $4,977                46
     Employee B                                   23,613            26,565                2,952               28
     Employee C                                   53,677            55,587                1,909               18
      Total for employees A through C           139,646           149,484                 9,838               92
      Total for three other employees           153,035           153,947                   912                8
      Total for all six employees              $292,681          $303,431              $10,750               100
   Sources: PICS, Schedule Award of Compensation Letters, and AQS Case Compensation Payment History
   Note: Numbers and Percentages are rounded.

      In the cases of Employees A, B, and C the AQS payment history indicated the
      employees received more compensation than the amounts authorized on their Schedule
      Award of Compensation Letters. Neither the Postal Service employees’ case files nor
      the AQS payment histories, however, contained explanations for why the OWCP paid
      the employees more than the amounts authorized in their letters.

      For the remaining three employees who may have received a total of $912 in
      overpayments, OWCP procedures13 allow amounts less than $700 to be uncollected
      (written off) because the costs of pursuing collection may exceed the amount to be
      repaid. The OWCP will not recover these amounts.
      12
         The AQS is a DOL system that allows employers access to employee data through an Internet server. The AQS
      contains data on current case status and compensation and medical bill payment history for all active compensation
      cases.
      13
         FECA Procedure Manual, Section 6-0200-8, Administrative Termination of Debt Collection (Overpayments Less
      Than $700).

                                                               7
 Postal Service’s Schedule Awards Program                                                     HM-AR-06-007
  in the New York Metro Area – Report I


 Potential Underpayments Identified

 Of the 29 employees that may have been underpaid, four employees were underpaid
 $1,000 or more as shown in Table 6. The remaining 25 employees may have been
 underpaid less than $1,000. Most of the potential underpayments occurred in
 two Postal Service district injury compensation offices in the New York Metro Area –
 Central and Northern New Jersey. (See the shaded rows in Table 6.) The largest
 two potential underpayments occurred in the New York and Northern New Jersey
 Districts.
                Table 6: Number of Potential Underpayments, by Postal Service District
                                     Injury Compensation Office

                                     Potential Underpayments: Amounts Paid Under the
                                                    Authorized Amounts
   Injury Compensation         $5 to     $50 to       $100 to      $500 to       $1,000 to
           Office             $49.99     $99.99       $499.99      $999.99       $4,999.99               Total
 Caribbean                      ---         ---         ---           ---            ---                   0
 Central New Jersey              2          ---          3             1              0                    6
 Long Island                    ---         ---         ---            1             ---                   1
 New York                       ---         ---         ---            2              1                    3
 Northern New Jersey            ---         ---         10             3              3                   16
 Triboro                        ---         ---          1            ---            ---                   1
 Westchester                    ---          1           1            ---            ---                   2
   TOTAL                         2           1          15             7              4                   29
Source: Schedule Award of Compensation Letters and AQS Case Compensation Payment History

 As shown in Table 7, the four potential underpayments (of more than $1,000) totaled
 $7,217 and represented 48 percent of the $15,060 that may have been underpaid.
 The remaining 25 employees may have been underpaid a total of $7,843.

      Table 7: Top Four Potential Underpayments, by Employee, Compared to Total Underpayments

                                                                                           Percentage of the
                                         Amount        Amount        Potential Amount        Total Amount
               Employee                 Authorized       Paid           Underpaid             Underpaid
 Employee D                                $84,834       $82,502               ($2,332)            16
             14
 Employee E                                 64,321        62,247                (2,074)            14
 Employee F                                 34,768        33,061                (1,707)            11
 Employee G                                 53,938        52,834                (1,104)             7
  Total for employees D through G          237,861       230,644                (7,217)            48
  Total for 25 other employees           1,202,323     1,194,481                (7,843)            52
  Total for all 29 employees            $1,440,184    $1,425,125             ($15,060)            100
Sources: PICS, Schedule Award of Compensation Letters, and AQS Case Compensation Payment History
Note: Numbers and percentages are rounded.

 For all 29 employees, the AQS payment history indicates they were paid less than the
 amounts authorized on their Schedule Award of Compensation Letters. Like the
 14
   The OWCP recognized that Employee E had been underpaid and on April 7, 2006, the OWCP issued a check to
 the employee to correct this underpayment.

                                                      8
Postal Service’s Schedule Awards Program                                                          HM-AR-06-007
 in the New York Metro Area – Report I


potential overpayments, neither the employees’ case files nor the AQS payment
histories contained information explaining why OWCP paid them less than the amounts
authorized in their Schedule Award of Compensation Letters.

According to Postal Service policy,15 injury compensation managers are required to
monitor compensation payments via the chargeback summary and detail reports and
immediately notify the OWCP district office of any overpayments. In addition, injury
compensation managers are required to monitor action taken by the OWCP on
overpayments identified. It is the responsibility of the New York Metro Area and the
districts’ injury compensation managers to ensure this occurs. Postal Service policy is
silent regarding the discovery of underpayments; however, OWCP policy16 states it can
use quarterly chargeback reports to identify and correct errors before the agency is
billed for them. OWCP policy17 further states that agencies are responsible for
informing the OWCP of incorrect entries appearing on the quarterly chargeback report.

Based on interviews with the seven18 district injury compensation managers, the
two primary reasons employees were potentially over- and underpaid were managers
and injury compensation specialists (1) not reviewing chargeback reports and/or
(2) not knowing how to calculate or verify the authorized schedule award amounts. The
XXXXXXXXXXXXXXXXXXX District Injury Compensation Manager, however, said her
office did not identify underpayments because that is the responsibility of the employee
and/or the OWCP. She said employees are aware of their workers’ compensation
entitlements (such as schedule awards) and employees should pursue their
underpayments.

The XXXXXXXXXXXXXXXXXX District Injury Compensation Manager said there are no
standard operating procedures (SOPs) in his district describing how to identify over- or
underpayments. He also said he has never been trained how to calculate or verify the
schedule award authorized amounts. He further stated OWCP training courses and
seminars did not include a discussion or review of how to determine or calculate
schedule award compensation amounts.

The XXXXXXXXXXX District Injury Compensation Manager, whose district had
employees that were underpaid less than $500, stated she would not request that the
OWCP resolve her district’s underpayments because the amounts were minimal and
payroll adjustments for these cases would cost more than the employees’
underpayments.

The XXXXXXXXXXXXXX Area Injury Compensation Manager said that if he knew the
district injury compensation managers were not reviewing chargeback reports, he would

15
   Handbook Employee and Labor (EL)-505, Injury Compensation, Section 13.18, Recovering Compensation
Overpayment, December 1995.
16
   Publication Compensation Act (CA)-810, Injury Compensation for Federal Employees, Section 9-5, Chargeback,
(Part C) Quarterly Chargeback Reports.
17
   Publication CA-810, Injury Compensation for Federal Employees, Section 9-5, Chargeback, (Part B) Errors.
18
   We interviewed the injury compensation managers in the Caribbean, Central New Jersey, Long Island, New York,
Northern New Jersey, Triboro, and Westchester Districts.

                                                       9
Postal Service’s Schedule Awards Program                                                           HM-AR-06-007
 in the New York Metro Area – Report I


have told them to do so. He confirmed, however, there are no SOPs or policies for
reviewing Schedule Award of Compensation Letters to ensure the data in the letters are
complete and accurate. He also said that, historically, the Postal Service has viewed
the completeness and accuracy of schedule award data as the OWCP’s responsibility.

The XXXXXXXXXXXXXX Area Senior Injury Compensation Specialist added that, even
without SOPs or policies requiring the review of Schedule Award of Compensation
Letters, the district injury compensation managers are still responsible for reviewing
chargeback reports every month to ensure schedule award payments are accurate.

Postal Service and OWCP Course Materials Do Not
Address Schedule Awards’ Calculations

We reviewed several Postal Service handbooks and training course materials related
to claims management and none addressed the calculation or verification of schedule
awards payments. Our review included the materials for the 2-week Basic Injury
Compensation Course (19Q01-11), dated March 2005. This course was designed to
provide the injury compensation specialist with a comprehensive understanding of their
role in the Postal Service Injury Compensation Program.

In addition, the OWCP offers several courses to assist agencies in processing
compensation claims.19 Materials for these courses did not include information on
how to calculate or verify a schedule award payment.

Postal Service policy is clear that district injury compensation managers are required to
monitor all workers’ compensation payments, including schedule award payments. As
such, both the Postal Service and the OWCP need to provide the necessary training to
ensure that managers understand their responsibilities.

Notifications to Employees and Agencies of COLAs

Employees approved by the OWCP for schedule award payments receive a copy of a
Schedule Award of Compensation Letter outlining the following:

        •    Number of weeks of compensation
        •    Weekly compensation
        •    Weekly pay rate
        •    Percentage of pay rate
        •    Period of award
        •    Degree and nature of impairment

The OWCP also sends a copy of the letter to the employing agency. However, the
OWCP does not send agencies amended letters showing the “new” weekly or monthly

19
  Publication CA-810, A Handbook for Agency Personnel, February 1994, identifies the following four courses: The
FECA Seminar, The Basic Compensation Specialist Workshop, The Advanced Compensation Specialist Training,
and The FECA Supervisors Workshop.

                                                       10
Postal Service’s Schedule Awards Program                                                           HM-AR-06-007
 in the New York Metro Area – Report I


payment amounts that result from COLA increases. The only time agencies are notified
by letter of an upcoming COLA increase is if the COLA is known at the time the original
Schedule Award of Compensation Letter is prepared. For example, a letter dated
January 16, 2003, would include the COLA because it was known at the time the
letter was prepared (January 2003).

According to the OWCP’s Deputy Director, Division of Federal Employees’
Compensation, an employee receives notice of a COLA increase on the benefit
explanation the Department of the Treasury sends with the check that includes the
COLA increase (or in the case of electronic deposits, on the employee’s benefit
statement). Regarding the OWCP’s notification to the agency, the Deputy Director said
that when the COLA is applied each March 1, the agency is free to contact one of the
OWCP’s offices to determine the amounts. He added the COLA information is also
included in program bulletins that are posted to the OWCP’s website, but stated there is
some lag time before that happens.

We believe that because the OWCP has program responsibility for schedule awards, it
should advise agencies of COLA changes to employees’ schedule awards payments.
This would help the agencies to monitor increases to schedule award payments to
ensure they are correct and would enable the agencies to identify and correct errors
before the OWCP bills them.

Corrective Action

Of the 29 potential underpayments in the six districts, the OWCP has issued a
reimbursement check of $2,074 to one employee (Employee E). Also, using the
underpayment information the OIG provided, the Triboro District Injury Compensation
Manager sent a letter dated April 3, 2006, to the OWCP to request that one other
employee be paid the underpaid amount of $111. According to the manager, the
employee had not been paid as of August 16, 2006.

In addition, in accordance with the DOL OIG’s protocol for OIG audits of the FECA
program,20 we will send a letter asking that the DOL OIG review the issue of the
absence of information on calculating or verifying schedule award payments in OWCP’s
handbooks and training course materials. We will request that, if they determine this
information does not exist, they recommend it be added to OWCP’s course materials.
We will also request that the DOL OIG review the issue that the OWCP is not notifying
employing agencies of “new” weekly or monthly schedule award payment amounts
resulting from COLA increases. We will request that if the DOL OIG finds this to be true
they recommend that OWCP implement notification procedures. We believe these
actions will assist the Postal Service and other federal agencies in their verification of
schedule award payments.



20
  Protocol for OIG Audits, Inspections, Evaluations, and Investigations of the Federal Employees’ Compensation Act
Program, effective July 1, 2006.

                                                        11
Postal Service’s Schedule Awards Program                                     HM-AR-06-007
 in the New York Metro Area – Report I


Recommendations

We recommend the Vice President, New York Metro Area Operations, direct the
New York Metro Area Injury Compensation Manager to instruct the Caribbean, Central
New Jersey, and Northern New Jersey Districts’ Injury Compensation Managers to:

   1. Work with the Office of Workers’ Compensation Programs to determine if the
      potential overpayments identified in this report are accurate and, if they are, to
      request that credits be made and then ensure they appear on the chargeback
      reports. In addition, we request the Postal Service notify the U.S. Postal Service
      Office of Inspector General of the results of the Office of Workers’ Compensation
      Programs’ review of the potential overpayments.

We also recommend the Vice President, New York Metro Area Operations, direct the
New York Metro Area Injury Compensation Manager to instruct the Central New Jersey,
Long Island, New York, Northern New Jersey, and Westchester Districts’ Injury
Compensation Managers to:

   2. Work with the Office of Workers’ Compensation Programs to determine if the
      potential underpayments identified in this report (excluding Employee E) are
      accurate and, if they are, to request that the Office of Workers’ Compensation
      Programs compensate employees according to the authorized amounts. In
      addition, we request the Postal Service notify the U.S. Postal Service Office of
      Inspector General of the results of the Office of Workers’ Compensation
      Programs review of the potential underpayments.

In addition, we recommend the Vice President, New York Metro Area Operations, direct
the New York Metro Area Injury Compensation Manager to:

   3. Emphasize to all district injury compensation managers the requirement and
      responsibility for reviewing chargeback reports on a quarterly basis.

   4. Remind all district injury compensation managers and specialists to verify the
      “new” authorized schedule award amounts (after the March 1 cost-of-living
      adjustment) and review chargeback reports to ensure employees receive the
      correct authorized amounts after the cost-of-living adjustment effective date.

Management’s Comments

The Vice President, New York Metro Area Operations, agreed with the findings and
recommendations. He provided us a copy of the New York Metro Area Injury
Compensation Manager’s memorandum dated September 18, 2006, that was sent to
the area district injury compensation managers. The memorandum instructed the
managers to implement the Postal Service OIG’s recommendations. (See Appendix D
for the memorandum.)



                                           12
Postal Service’s Schedule Awards Program                                     HM-AR-06-007
 in the New York Metro Area – Report I


The memorandum also instructed the managers to review the identified cases for
possible over- and underpayments, in conjunction with the OWCP, in order to validate
discrepancies. The memorandum also stated that if overpayments are warranted, the
district injury compensation managers should request a credit from the OWCP and
review chargeback reports to ensure the credits were made. In cases of
underpayments, the memorandum instructed the Central New Jersey, Long Island,
New York, Northern New Jersey, and Westchester District Injury Compensation
Managers to pursue the possible underpayment discrepancies with the OWCP.

In addition, the memorandum stated that reports concerning the results of the reviews
(done in conjunction with the OWCP) and any necessary action regarding potential
over- and underpayments are due to the New York Metro Area Injury Compensation
Manager by October 10, 2006. The Vice President stated the New York Metro Area
Injury Compensation Manager will notify the Postal Service OIG of the results once the
reviews are completed.

The memorandum also instructed all New York Metro Area district injury compensation
managers to review chargeback reports at least quarterly. It further instructed district
injury compensation managers to review chargeback summary and detailed reports
monthly and pursue payment discrepancies with the OWCP.

Finally, the memorandum instructed all New York Metro Area district injury
compensation managers to review the chargeback reports generated immediately after
the yearly COLA takes effect, to identify and verify that the COLA adjustment was
applied correctly.

Evaluation of Management’s Comments

Management’s actions are responsive to the recommendations, and the planned
actions should address the issues identified in the report. The OIG considers
recommendations 1 and 2 significant and, as such, requires documentation of
compliance with the recommendations be provided prior to their closure. The OIG
considers the support provided by management sufficient to close recommendations 3
and 4.

Recommendations

We recommend the Vice President, Employee Resource Management:

   5. Revise the Basic Injury Compensation Course (19Q01-11) to include training on
      how to calculate and verify the schedule award amounts the Office of Workers’
      Compensation Programs authorizes and include the revised portion as
      mandatory training for all injury compensation managers and specialists.




                                           13
Postal Service’s Schedule Awards Program                                                             HM-AR-06-007
 in the New York Metro Area – Report I



     6. Implement, when feasible,21 a Schedule Award Verification Standard Operating
        Procedure that directs all injury compensation managers to review schedule
        award payment data for accuracy. The standard operating procedure should
        require district injury compensation managers to do the following at least once
        each quarter:

             a. Build/create a Schedule Award Report in the Injury Compensation
                Performance Analysis System to include a column that displays the total
                amount of the award paid to date.

             b. Review the Schedule Award Reports to ensure employees are paid the
                amounts authorized (compare the total amounts paid with the amounts
                authorized or the total amounts of the schedule awards).22

     7. Revise Postal Service policy to require injury compensation managers to monitor
        compensation payments via chargeback summaries and detail reports and
        immediately notify the Office of Workers’ Compensation Programs’ district offices
        of any underpayments.

Management’s Comments

The Manager, Health and Resource Management, responded for the Vice President,
Employee Resource Management, stating their agreement with the findings and
recommendations. He stated that a revision of the Basic Injury Compensation Course
(19Q01-11) is underway, and the revised course will be self-administered using the
eLearning training methodology (on-line training). He also stated that a lesson on
calculating and verifying OWCP schedule award amounts will be developed by the
Postal Service Health and Resource Management Office, and made mandatory for
injury compensation managers and specialists.

The Manager also stated the Postal Service will develop a Schedule Award Verification
SOP for all injury compensation personnel. He said the SOP will include steps to
generate a Schedule Award Report in the Injury Compensation Performance Analysis
System, which will capture the total amount of the schedule awards paid to date, and
will ensure the amounts paid are accurate.

The Manager further stated the Postal Service will revise case management policy to
require injury compensation managers to review all chargeback report payments and to


21
   According to the Manager, Health and Resource Management, the ability to build/create any new reports or make
modifications to the Injury Compensation Performance Analysis System has been frozen for approximately a year –
until human resource records and information have been transferred to SAP. He said as soon as the freeze is lifted,
he would be able to implement this recommendation.
22
   The Pacific Area implemented a similar SOP in response to our findings during an audit of their area. This
information is contained in our report titled OWCP’s Schedule Award Payments to Postal Service Employees in the
Pacific Area – Report II (Report Number HM-AR-05-011, dated September 29, 2005).

                                                         14
Postal Service’s Schedule Awards Program                                                       HM-AR-06-007
 in the New York Metro Area – Report I


immediately notify the OWCP of any identified discrepancies. Management’s
comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

Management’s actions are responsive to the recommendations, and the planned
actions should address the issues identified in the report. The OIG considers
recommendations 5, 6, and 7 significant and, as such, requires documentation of
compliance with the recommendations be provided prior to their closure.

Missing Schedule Award of Compensation Letters

During our review of the 110 workers’ compensation case files, we found that
19 Schedule Award of Compensation Letters were missing. Most instances of missing
letters occurred in the Northern New Jersey District Injury Compensation Office. (See
the shaded row in Table 8.)

                    Table 8: Missing Schedule Award of Compensation Letters by
                         Postal Service District Injury Compensation Office

                  Injury Compensation Office                     Number of Missing Letters
      Central New Jersey                                                    2
      Long Island                                                           1
      New York                                                              2
      Northern New Jersey                                                  12
      Triboro                                                               1
      Westchester                                                           1
       Total                                                               19
     Source: Postal Service employee workers’ compensation case files

The Schedule Award of Compensation Letter can be used to determine (1) the amount
authorized and (2) whether the Postal Service was over- or undercharged for schedule
award payments. According to Postal Service policy,23 a district’s Injury Compensation
Control Office (ICCO) is responsible for the maintenance, disclosure, and disposition of
injury compensation program records within the Postal Service, consistent with the
Privacy Act. The policy also states the ICCO prepares a case file for each new claim it
receives and the files contain all relevant claim forms, medical documentation,
correspondence, and any other pertinent information. In addition, the policy states the
end of the fiscal year after the effective date of termination of all FECA benefits is the
cutoff date for file retention purposes. Further, the policy states when the employee’s
compensation is terminated (no wage loss, no medical payments, and no limited duty),
the case file must be placed in inactive files, retained for 5 years, and then destroyed.




23
  Handbook EL-505, Injury Compensation, Records Management, Section 12.3, Maintaining and Closing Files,
December 1995.

                                                     15
Postal Service’s Schedule Awards Program                                    HM-AR-06-007
 in the New York Metro Area – Report I


The Northern New Jersey and Westchester Injury Compensation Managers told us that
Schedule Award of Compensation Letters were missing from their files because the
OWCP did not send the letters to their offices.

Because schedule award payments were not being verified and validated, injury
compensation managers did not realize the letters were missing. When injury
compensation managers do not ensure the OWCP provides Schedule Award of
Compensation Letters, the Postal Service cannot calculate the authorized amounts,
and thus cannot ensure employees are paid the authorized amounts and/or the Postal
Service is charged properly.

Corrective Actions

New York Metro Area District Injury Compensation Managers obtained 12 of the
19 missing letters from the OWCP. They were not, however, able to obtain the
remaining seven letters for a number of reasons. For example, an OWCP physician
had one case file and other files had been scanned into the OWCP’s paperless file
system and the hard copy letters were no longer available.

The Northern New Jersey District Injury Compensation Manager told us her staff will
monitor chargeback reports for employees receiving schedule award payments, verify
the OWCP provides Schedule Award of Compensation Letters, and place them in each
employee’s case file. She also stated her office will request copies of Schedule Award
of Compensation Letters from the OWCP if they do not provide them.

The Westchester District Injury Compensation Manager stated, in the future, the
Schedule Award of Compensation Letters will be filed in employees’ case files when
received. The Manager also stated her district will request copies of Schedule Award of
Compensation Letters from the OWCP if they do not provide them.

Recommendation

We recommend the Vice President, New York Metro Area Operations, direct the
New York Metro Area Injury Compensation Manager to instruct the Central New Jersey,
Long Island, New York, and Triboro District Injury Compensation Managers to:

   8. Ensure they obtain Schedule Award of Compensation Letters from the Office of
      Workers’ Compensation Programs and file them in the Postal Service case files
      of employees who receive schedule awards.

Management’s Comments

The Vice President, New York Metro Area Operations, agreed with the finding and
recommendation. He stated that to ensure the area’s injury compensation program is
applied uniformly, the New York Metro Area Injury Compensation Manager’s
memorandum instructs all district injury compensation managers to obtain copies of


                                           16
Postal Service’s Schedule Awards Program                                       HM-AR-06-007
 in the New York Metro Area – Report I


Schedule Award of Compensation Letters from the OWCP. The memorandum also
instructs the managers to file the letters in the case files for those employees receiving
schedule award payments. The Vice President said the district injury compensation
managers will be directed to provide a progress report to the New York Metro Area
Injury Compensation Manager, and a summary report of their review will be sent to the
OIG.

The Vice President also said that since the Northern New Jersey District had a
substantially higher number of missing schedule award letters than any other New York
Metro Area district, an on-site audit of all Northern New Jersey schedule award case
files will be completed no later than November 1, 2006, to ensure all files are complete.

Evaluation of Management’s Comments

Management’s actions are responsive to the recommendation, and the planned actions
should address the issue identified in the report. The OIG considers the support
provided by management sufficient to close recommendation 8.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2100.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc:   Anthony J. Vegliante
      Alice G. Newman
      John P. O’Connor
      Steven R. Phelps




                                            17
Postal Service’s Schedule Awards Program                         HM-AR-06-007
 in the New York Metro Area – Report I


                           APPENDIX A. ABBREVIATIONS
AQS            Agency Query System
CA             Compensation Act
CBY            Chargeback Year
COLA           Cost-of-Living Adjustment
COP            Continuation of Pay
CY             Calendar Year
DOL            Department of Labor
EL             Employee and Labor
FECA           Federal Employees’ Compensation Act
ICCO           Injury Compensation Control Office
OIG            U.S. Postal Service Office of Inspector General
OWCP           Office of Workers' Compensation Programs
PICS           Postal Injury Compensation System
SOP            Standard Operating Procedure




                                            18
Postal Service’s Schedule Awards Program                                                       HM-AR-06-007
 in the New York Metro Area – Report I


           APPENDIX B. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to determine whether the Postal Service’s New York Metro Area
was over- or undercharged for schedule award payments in CBYs 2004 and 2005 and
received credits for overpayments from the DOL’s OWCP. We also determined whether
underpayments were made to employees.

To accomplish our objectives, we reviewed and analyzed schedule award payments
extracted from PICS for CBYs 2004 and 2005. We also reviewed Postal Service and
OWCP policies and procedures and interviewed Postal Service New York Metro Area
officials and districts’ injury compensation managers in the area’s seven districts:
Caribbean, Central New Jersey, Long Island, New York, Northern New Jersey, Triboro,
and Westchester.

To determine whether the Postal Service was over- or undercharged for schedule
award payments, we obtained a universe of New York Metro Area employee workers’
compensation cases where at least one schedule award payment was made in CBYs
2004 or 2005. This resulted in a universe of 243 cases. We selected a statistical
sample of 11024 cases from the 243. We reviewed each case file and made a copy of
the Schedule Award of Compensation Letters (including those that were amendments to
the original letter) and other documents in the files related to the employees’ schedule
awards.

To determine whether the OWCP over- and undercharged the Postal Service through
the chargeback process for schedule award payments, we compared the authorized
schedule award amounts to the amounts actually paid to the employees. We based the
authorized amounts on information in the Schedule Award of Compensation Letters
sent to the employees and maintained in the Postal Service case files. We verified and
calculated the authorized amounts by multiplying the number of weeks of compensation
by the weekly compensation rate and included the COLAs, if applicable.

We obtained the amounts paid from the OWCP’s AQS Case Compensation Payment
History screens as of February 28, 2006.25 The amounts actually paid were based on
information recorded in the history screens. Copies of the AQS payment histories, in
addition to information from the Postal Service’s Workers’ Compensation Information
System (the latter system contains information obtained from the OWCP), were
provided by a New York Metro Area Office Injury Compensation Specialist. We also
prepared a spreadsheet to compare the amounts authorized to the amounts paid and to
analyze payment data.

We interviewed injury compensation managers in the Caribbean, Central, Long Island,
New York, Northern New Jersey, Triboro, and Westchester Districts to verify and
validate the schedule award over- and underpayments. We also discussed the over-
and underpayments with officials in the New York Metro Area Office and its

24
     We reviewed case files and each case file represented an employee.
25
     The OWCP provided copies of the AQS Case Compensation Payment History page for the 110 cases.

                                                       19
Postal Service’s Schedule Awards Program                                     HM-AR-06-007
 in the New York Metro Area – Report I


seven districts to ensure that the payments actually occurred. If a potential incorrect
payment occurred, we determined whether the area was aware of the payments and, if
so, what corrective actions had been taken. We discussed other information related to
schedule award payments and authorized amounts. We also obtained and reviewed
the Postal Service and OWCP policies and procedures to determine which agency (the
Postal Service or the OWCP) was responsible for identifying the over- and
underpayments.

In accordance with the DOL OIG protocol for OIG Audits, Inspections, Evaluations,
and Investigations of the FECA Program, effective July 1, 2006, we contacted the
OWCP’s Deputy Director, Division of Federal Employees’ Compensation, and asked
him two questions regarding COLA notification to employees and the employing
agency.

We conducted this audit from February through September 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.

Data Reliability Testing

For the case files we requested, we tested the data to determine whether the records
were reliable. We compared data for specific fields extracted from PICS (employee’s
DOL case number, name, date of birth, Social Security number, date of injury, percent
of disability, and weeks of compensation) to the information on the Schedule Award of
Compensation Letter. Of the 110 case files we reviewed, PICS data did not match the
Schedule Award of Compensation Letters in 11 cases, or 10 percent (see the following
table). The purpose of our review was to determine whether over- and underpayments
occurred and the data that did not match in the 11 cases was not significant to meet our
objectives.




                                           20
Postal Service’s Schedule Awards Program                                 HM-AR-06-007
 in the New York Metro Area – Report I



    Sample                      Description of Data on Schedule Award of
    Number                    Compensation Letters that Did Not Match PICS
        37         Date of birth did not match PICS data
        51         Date of birth did not match PICS data
        65         Date of birth did not match PICS data
        75         Percentage of disability did not match PICS data
        82         Date of birth did not match PICS data
        84         Percentage of disability did not match PICS data
        95         Date of birth did not match PICS data
       102         Date of birth did not match PICS data
       105         Date of birth did not match PICS data
       108         Date of birth did not match PICS data
       121         Percentage of disability did not match PICS data




                                              21
Postal Service’s Schedule Awards Program                                       HM-AR-06-007
 in the New York Metro Area – Report I


                                           APPENDIX C

 STATISTICAL SAMPLING FOR REVIEW OF SCHEDULE AWARDS IN
        THE POSTAL SERVICE NEW YORK METRO AREA

Purpose of the Sampling

One of the objectives of this audit was to determine whether the New York Metro Area
was over- or undercharged for schedule award payments. In support of this objective,
the audit team used a simple random sample to select OWCP schedule award cases for
review. We will attempt to project the over- and underpayments based on the amounts
verified by the OWCP when we receive those amounts from the Postal Service. (See
recommendations 1 and 2.)

Definition of the Audit Universe

The audit universe consisted of 243 cases that had at least one schedule award
payment in CBYs 2004 or 2005. The OIG’s Computer Assisted Assessment
Techniques staff extracted the audit universe from the PICS database. The payments
for these 243 cases, from the start of each individual case, constituted the total dollar
universe for the audit.

Sample Design and Modifications

We chose a simple random sampling (without replacement) design because we had no
basis for a stratified design. We sized the sample based on the gross payment from the
audit universe. To size the sample, we assumed an expected coefficient of variation of
about 70 percent based on the gross OWCP schedule award payment in the New York
Metro Area. We calculated the sample size for a two-sided 95 percent confidence
interval with about ± 10 percent precision. We determined that, for these parameters,
we needed to sample approximately 110 payment cases. We made all case selections
for the sample using the “randbetween” function in Excel to assign random numbers to
the cases in the universe listing and used those random numbers to determine the
cases included in the sample.

During the audit, the team encountered a sizeable number of cases for which the period
of award had not ended, thus the employee was still being paid. Therefore, we
increased the sample size to 125 in order to have a good representation of the cases for
which the period of award had ended.




                                               22
Postal Service’s Schedule Awards Program              HM-AR-06-007
 in the New York Metro Area – Report I


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                           23
Postal Service’s Schedule Awards Program         HM-AR-06-007
 in the New York Metro Area – Report I


       APPENDIX D. MANAGEMENT’S COMMENTS (CONTINUED)




                                           24
Postal Service’s Schedule Awards Program         HM-AR-06-007
 in the New York Metro Area – Report I


       APPENDIX D. MANAGEMENT’S COMMENTS (CONTINUED)




                                           25
Postal Service’s Schedule Awards Program         HM-AR-06-007
 in the New York Metro Area – Report I


       APPENDIX D. MANAGEMENT’S COMMENTS (CONTINUED)




                                           26
Postal Service’s Schedule Awards Program         HM-AR-06-007
 in the New York Metro Area – Report I


       APPENDIX D. MANAGEMENT’S COMMENTS (CONTINUED)




                                           27
Postal Service’s Schedule Awards Program         HM-AR-06-007
 in the New York Metro Area – Report I


       APPENDIX D. MANAGEMENT’S COMMENTS (CONTINUED)




                                           28
Postal Service’s Schedule Awards Program         HM-AR-06-007
 in the New York Metro Area – Report I


       APPENDIX D. MANAGEMENT’S COMMENTS (CONTINUED)




                                           29
